           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         STATUS OF TITLE II
     INSTALLMENT AGREEMENTS

    September 2008   A-02-08-18074




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 5, 2008                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Status of Title II Installment Agreements (A-02-08-18074)


           OBJECTIVE
           Our objective was to determine the effectiveness of the Social Security Administration’s
           (SSA) efforts to collect Title II overpayments from individuals who agreed, but failed, to
           honor an installment agreement.

           BACKGROUND

           Individuals are considered overpaid when they receive benefits in excess of the amount
           to which they are entitled. With few exceptions, overpaid individuals are responsible for
           repaying the overpayments. 1

           SSA prefers a full and immediate refund of overpayments. If a full refund is not
           possible, SSA has several methods of collecting an overpayment. If a benefit is
           payable to an overpaid individual, SSA can propose that all or part of a monthly benefit
           payment be withheld to repay the overpayment over time. If an overpaid individual is
           not due a benefit, SSA can propose repayment through adjusting the benefit payment
           of another individual who is receiving benefits on the same record of the overpaid
                   2                                           3
           person. This is referred to as contingent liability. However, the contingently liable


           1
             According to SSA’s Program Operations Manual System (POMS), GN 02250.001 Waiver- Title II, XVIII,
           individuals may not be responsible for repaying an overpayment when the person was without fault in
           causing the overpayment, and recovery would either defeat the purpose of the Social Security Act or be
           against equity and good conscience. Additionally, according to POMS, GN 02215.235, Suspension or
           Termination of Collection Action for Title II and Title XVI Debts, SSA may discontinue collection efforts if
           the debtor cannot repay, the debtor cannot be located, or the costs of collection are expected to exceed
           the amount recoverable. However, the debt is still subject to future collection and may be recovered if the
           debtor returns to payment status or through the use of external collection sources.

           2
               SSA, POMS, GN 02210.015 Priority of Adjustment-Overpayment.
           3
               SSA, POMS, GN 02205.005 Contingent Liability- Overpayment Recovery Title II.
Page 2 - The Commissioner

individual has the right to request that recovery of the overpayment from his benefits be
waived.

When benefit withholding is not possible and an overpaid person is unable to make a
full refund in a single payment, an individual can enter into an installment agreement
with SSA whereby the individual refunds the overpayment through monthly installment
payments. In cases where a beneficiary makes, but later fails to honor, the installment
agreement, SSA’s POMS 4 prescribes that the following outreach efforts should occur
(see Appendix E for a flowchart of the process).

•     The Recovery and Collection of Overpayment Process (RECOOP) sends
      two reminder bills 1 month apart.

•     If the beneficiary has not made a payment 30 days after the second reminder bill is
      sent, RECOOP sends a call-in notice, advising the debtor to call the Debt
      Management Section in the program service center of jurisdiction.

•     If there is still no response from the beneficiary 15 days later, an alert is generated
      for the Debt Management Section to contact the debtor by telephone.

•     The Debt Management Section controls the case until the debt is resolved.

If certain criteria are met, SSA can also recover delinquent overpayments through such
options as the Treasury Offset Program (TOP), which offsets any Federal payment,
(that is, a tax refund due an overpaid individual) and/or Administrative Wage
Garnishment (AWG), a vehicle by which the wages of a delinquent SSA debtor may be
garnished. SSA may also report delinquent Title II debts to credit bureaus. SSA has
an automated External Collection Operation (ECO) system that selects debtors from
the Recovery of Overpayments, Accounting and Reporting System (ROAR) who are
eligible for TOP, AWG and/or credit bureau reporting.

Debtors who have been sent the second reminder bill by RECOOP and meet the
applicable criteria for TOP, AWG and/or credit bureau reporting are automatically
selected by the ECO system. If SSA has a valid address, it sends a debtor selected by
the ECO system a notice stating SSA's intent to refer their debt for TOP, AWG and/or
credit bureau reporting. The notice also explains the individual’s due process rights. 5 If
all the conditions for TOP, AWG, and/or credit bureau reporting still exist at the end of a
60-day due process period, recovery via TOP or AWG, or credit bureau reporting
should be pursued.




4
    SSA, POMS, SM 00610.735 Installment Agreements.
5
 Debtors are advised of their rights to request a waiver or a review of SSA’s records of the debt.
Additionally they are given information about the specific recovery method for which they are eligible.
Page 3 - The Commissioner

To meet our objective, we obtained a data extract from one segment of the Master
                           6
Beneficiary Record (MBR) for individuals with an open installment agreement as of
December 31, 2006. From this data set, we isolated individuals with an overpayment
balance of $20,000 or more who had not made any of the agreed-upon installment
payments from January 1 through March 15, 2007. For the purposes of this review, we
considered these installment agreements to be delinquent. There were 163 individuals
in the MBR segment with combined overpayments totaling approximately $6.1 million
who met the selection criteria. Of these, we sampled 50 individuals to determine
whether SSA took the appropriate steps to collect the delinquent amounts. Additional
details of our Scope and Methodology are in Appendix B. Appendix C further details
our Sampling Methodology and Results.

RESULTS OF REVIEW
The effectiveness of SSA’s efforts to collect overpayments related to delinquent Title II
installment agreements can be improved. While SSA had procedures in place to
contact delinquent debtors, it did not follow the procedures in six of the cases we
reviewed. Also, SSA did not pursue other recovery methods available, for example,
TOP and AWG, for all eligible cases.

For three of the six cases mentioned above, SSA failed to both follow its outreach
procedures and pursue TOP or AWG. 7 As a result, SSA lost the opportunity to collect
$95,465 from these three individuals. Estimating these results to the total population,
we estimate SSA failed to both follow its procedures and refer cases for TOP and/or
AWG for 200 individuals with combined overpayments of $6,224,320. For the
remaining three cases, although SSA did not follow its outreach procedures, the cases
were automatically selected by the ECO system and referred for TOP.

For four additional individuals with combined overpayments of $140,290, SSA did not
pursue TOP or AWG 8 even after it fully followed its outreach procedures and the
individual debtors remained delinquent. Estimating these results to the total population,
we estimate SSA failed to refer 260 individuals with combined overpayments of
$9,146,920 for TOP and/or AWG after its outreach procedures proved unsuccessful.

Because SSA did not refer the seven cases noted above for TOP and/or AWG, we
estimate it missed the opportunity to collect about $15.4 million from individuals who
failed to honor their installment agreements.



6
    One segment of the MBR represents 5 percent of the total population, that is, 1/20.
7
 In one case, TOP and AWG were applicable; in another case, only TOP was applicable; and in the third
case, neither TOP nor AWG were applicable.
8
 In two of the cases both TOP and AWG were applicable but not pursued. In the other two cases, only
TOP was applicable.
Page 4 - The Commissioner

SOCIAL SECURITY ADMINISTRATION COLLECTION PROCEDURES

While SSA followed its collection procedures for 44 cases, its efforts were only
successful in getting 1 individual to restart her installment payments. The remaining
                                                         9
43 individuals did not resume installment payments. We also found that SSA did not
follow its collection procedures for 6 of the 50 individuals who failed to honor their
installment agreements. Specifically, three of the individuals in our review were not
sent reminder bills, as required. Sending reminder bills is the first step in the RECOOP
process, and it prompts subsequent collection procedures. Accordingly, these three
individuals also did not receive call-in notices, and SSA did not contact these debtors by
telephone. SSA did not send one other debtor a call-in notice or contact the debtor by
telephone and did not attempt telephone contact with two additional debtors.

In some cases, SSA stopped attempting to contact debtors without following all the
prescribed outreach procedures, but did not document a reason for the decision. In
other cases, SSA did not take a required action even though a diary had been
established in the RECOOP system to alert employees that a certain action was
necessary.

OTHER OVERPAYMENT RECOVERY METHODS

When delinquent debtors fail to honor their installment agreements after they have
been contacted by SSA, their cases should be referred for TOP and AWG, when
applicable. Also, an individual’s SSA-related debt can be posted to the individual’s
credit record through credit bureau reporting; however, this method does not generate
payments. SSA can use all three of these methods on the same case, if appropriate.

SSA had some success when these other recovery methods were used. As of
March 15, 2008, the Agency had recovered $77,845 through TOP from 21 of the
50 debtors, with combined overpayments of $652,067. It also recovered
$12,941 through AWG from 2 of the 50 debtors, who had combined overpayments
of $127,383. See the chart on the next page for specific details.




9
 We found that 1 of the 50 individuals in our sample was not in default of their agreement. The debtor
made five remittances totaling $90 in the period November 2006 through March 2007. Because of an
exception in the ROAR system, the remittances were not credited by that system until manual inputs were
made in April and July 2007. The lack of proper credits in the ROAR system made it appear as if
payments were not made, which is why this installment agreement was included in our sample.
Page 5 - The Commissioner

 Eligibility of Debtor 10                 TOP           Amount            AWG        Amount
                                        Number of      Recovered        Number of   Recovered
                                         Debtors        via TOP          Debtors     via AWG
 Eligible and referred
   Active payments being made                     0                $0           2      $12,941
   Some payments made, but not                   21           $77,845           0           $0
   currently being made
   No payments made                              17                $0           6           $0
 Eligible but not referred                        4                $0           5           $0
 Ineligible                                       8                $0          37           $0
 Totals                                          50           $77,845          50      $12,941

As the chart above indicates, we found that some debtors appeared to be eligible for
TOP or AWG, but they were not referred by the ECO system, which selects debts for
these recovery methods. Some of these debtors were not referred because the ECO
system selects cases for TOP and AWG on a debtor basis, rather than a debt, or
overpayment basis. While the debt we reviewed for these individuals met the TOP
and/or AWG eligibility criteria, it was not referred since other debts on the individuals’
records did not meet the criteria. The same condition existed for referrals to credit
bureaus.

We also found that some debtors were not selected for TOP, AWG or credit bureau
reporting because they were not sent a second, required reminder bill. The ECO
system will only select debtors for these programs after a second reminder bill is sent
notifying the debtor their installment payment is due. Additionally, one debtor was not
referred for AWG since his earnings were from a Government employer. Another
debtor was not referred since the ROAR showed a hearing was pending, though it
appears that SSA did not determine the outcome of the hearing and its impact on debt
collection. The criteria for TOP, AWG and credit bureau reporting and more detailed
information on the cases that were not referred to these programs are discussed below.

Treasury Offset Program

Debtors must meet certain criteria to be eligible for TOP. For example, the debtor’s
overpayment must be less than 10 years old, have been established after the debtor
                                                                          11
attained age 18 and not have been referred to the Department of Justice. Also, the
debtor must be in terminated status on the MBR and not deceased.




10
 We reviewed MBRs as of March 15, 2008 to determine whether SSA referred debtors to TOP and/or
AWG and recovery amounts.
11
     SSA, POMS, SM 00610.040 External Collection Operation.
Page 6 - The Commissioner

We determined that 8 of the 50 delinquent debtors did not meet the criteria and were
ineligible for TOP. Of the remaining 42 eligible cases, 38 were referred for TOP. Four
cases that should have been referred for TOP were not and are discussed below.

•     One debtor with an installment agreement never made a remittance payment for a
      debt that met the criteria for TOP. The ECO system did not select the overpayment
      for TOP referral since another debt on the debtor’s record did not meet the selection
      criteria. The debtor had another debt recorded in SSA’s systems that was
      considered open, even though it had been collected. Although a second reminder
      bill was not required for this debt since it was recovered, the fact that it was not sent
      prevented the ECO system from selecting the other debt for TOP. The ECO system
      will only select debtors for TOP after a second reminder bill is sent on all open
      overpayments.

•     Two debtors were not referred for TOP because of the existence of additional
                   12
      overpayments not covered by the installment agreement precluded selection.

•     One debtor was not referred for TOP because the ROAR indicated the debtor
      requested a hearing. A diary, that is a reminder in SSA’s systems to take an action
      on a certain date, was established in RECOOP to check the status of the hearing.
      However, the diary expired, and it appeared no action was taken to determine the
      status of the hearing and its impact on the collection of the overpayment.

Additionally, two debtors were previously referred for TOP but were no longer subject to
it at the time of our review. Each debtor had multiple overpayments, and TOP activity
ceased when some of the overpayments became over 10 years old. The TOP action
stopped even though most of their overpayment balances were incurred less than
10 years ago. By determining the entire overpayment balances for these two debtors
ineligible for TOP, SSA missed the opportunity to collect $81,284, the balance of debts
established less than 10 years ago.

Administrative Wage Garnishment

According to POMS, 13 debtors must meet all TOP criteria to be eligible for AWG except
that the total debt must be at least $200. Also, the debtor cannot be entitled to
Medicare or be an active participant in SSA’s Ticket to Work program, and the debtor
must be regularly employed by a State or local government or private employer.


12
  The additional overpayments that precluded ECO selection were Special Payment Amount (SPA)
overpayments, which are recorded on the MBR, but don’t have corresponding ROAR events. Since the
ECO system selects debtors from the ROAR system, debts without a ROAR event are not selected by the
ECO system. The overpayments we reviewed were recorded separately on the MBR and had
corresponding ROAR events, but the additional SPA overpayments on their records made the individuals
ineligible for ECO selection.
13
     SSA, POMS, SM 00610.040 External Collection Operation.
Page 7 - The Commissioner

Military and Federal pay is not subject to AWG. Instead, Federal Salary Offset (FSO) is
used to withhold pay from Federal or Military employees who have a delinquent
overpayment. 14

Eight of the 50 debtors were referred for AWG. As of March 2008, two of these
debtors’ overpayments were being repaid through AWG. Six of the referrals did not
result in collections because of debtor protest or termination of employment. We
identified an additional five debtors who met the criteria but were not referred for AWG
for the following reasons.

•     A debtor with an overpayment balance of $30,622 and 2006 earnings of
      $46,339 was not referred for AWG since ROAR events on his record, which were
      closed, were over 10 years old. However, his record contained an open ROAR
      event for the $30,622 overpayment, which was established in April 2001 (less than
      10 years ago). According to SSA staff in the Office of Retirement and Survivors
      Insurance Systems, even though the balance of the overpayment that was over
      10 years old was $0, the date the overpayment was established would be used
      when determining whether this debtor met the criteria for AWG.

•     One debtor, who had 2006 earnings of $47,240, was not referred for AWG because
      the existence of an additional overpayment not covered by the installment
      agreement precluded selection.

•     One debtor with an overpayment balance of $27,339 and 2006 earnings of
      $31,235 was not referred for AWG even though he had been selected for TOP. 15
      Although the debtor had been billed for the full amount of the debt before making an
      installment agreement, no bills were sent after the agreement was made.
      Accordingly, this debtor was not sent a second reminder bill. The ECO system
      requires the second reminder bill be sent before AWG selection. As of July 2008,
      the overpayment is 10 years old and is no longer eligible for AWG.

•     A debtor with a $24,838 overpayment was not referred for AWG even though he
      had almost $80,000 in earnings in 2006. The debtor’s earnings were recorded as
      Medicare Qualified Government Employment (MQGE) earnings. MQGE wages are
                                                      16
      wages from a Federal, State or local government. Federal wages are excluded
      from AWG and are instead subject to FSO. SSA staff reported that ECO does not
      select any MQGE wages for AWG to prevent Federal wages from being selected



14
     SSA, POMS GN 02201.040 Collection of Title II/ Title XVI Overpayments by AWG.
15
  Although SSA did not refer this individual for AWG, he was selected for TOP. We therefore did not
include this individual in our estimation of eligible cases that were not referred for other collection
methods.
16
     SSA, POMS RS 01401.010 Medicare Qualified Government Employment Wages.
Page 8 - The Commissioner

      since it cannot distinguish State and local government MQGE wages from Federal
      MQGE wages. In this case, the debtor’s employer was a school district, a local
      government entity, and the debtor was eligible for AWG. 17

•     One debtor, who had 2006 earnings of $32,929, was not referred for AWG because
      of an outstanding hearing request. A diary was established in RECOOP to check for
      the status of the hearing. However, the diary expired and no action was taken to
      determine the result of the hearing and its impact on the collection of the
      overpayment.

Credit Bureau

To qualify for credit bureau referral, debts (or overpayments) must meet the criteria
established for TOP, and the debt must be delinquent for less than 6 years and
          18
6 months.

Of the 50 cases, 25 were referred to credit bureaus; 3 additional cases were eligible for
such referrals. SSA did not refer the three cases for the following reasons.

•     Two debtors were not referred because of the existence of an additional
      overpayment not covered by the installment agreement precluded selection.

•     One debtor was not referred because a second required reminder bill was not sent
      for a prior debt.

PROJECTED RESULTS

For each of the 50 cases we reviewed, SSA should have attempted to contact the
delinquent debtors to have them honor their installment agreements. If SSA’s efforts
proved unsuccessful, it should have referred the cases for TOP and/or AWG, as
applicable. The possible route of each case was different since each could be eligible
for both TOP and AWG; eligible for one, but not the other; or ineligible for both.

We identified seven cases where SSA did not follow its outreach procedures and failed
to refer the cases for TOP or AWG, as applicable, or it did follow its procedures and
failed to refer the cases for TOP or AWG. In all of these cases, the lack of the referral
for TOP or AWG prevented the Agency from collecting overpayments eligible for
collection. We estimated that SSA missed the opportunity to collect about $15.4 million
owed to it by such individuals. The details of these seven cases are discussed below.



17
  Although SSA did not refer this individual for AWG, he was selected for TOP. We therefore did not
include this individual in our estimation of eligible cases that were not referred for other collection
methods.
18
     SSA, POMS, SM 00610.040 External Collection Operation.
Page 9 - The Commissioner

•   For 3 of the 50 cases we reviewed, SSA failed to follow its outreach procedures and
    pursue TOP or AWG. As a result, SSA lost the opportunity to collect $95,465 from
    these three individuals. Estimating these results to the total population, we estimate
    SSA failed to follow its procedures and refer cases for TOP and AWG for
    200 individuals with combined overpayments of about $6.22 million.

•   For four individuals with combined overpayments of $140,290, SSA followed its
    outreach procedures but did not pursue TOP or AWG when its outreach efforts
    failed. Estimating these results to the total population, we estimate SSA failed to
    refer 260 individuals with combined overpayments of about $9.15 million for TOP
    and/or AWG after its outreach procedures proved unsuccessful. (Please see
    Appendix D for a description of our estimated results.)

CONCLUSION AND RECOMMENDATIONS

We found that TOP and AWG were effective tools for collecting outstanding debt from
delinquent debtors but were not pursued for all eligible debtors for a number of reasons.
Some debtors were not referred for TOP or AWG since the ECO system determined
eligibility for these programs on a debtor basis and excludes all debts for individuals
with multiple debts if any of the debts do not meet the selection criteria. We also found
that some debtors were not selected for other recovery methods because they were not
sent a second required reminder bill, had MQGE wages on their records and/or had a
hearing pending on the ROAR and SSA failed to follow up to determine the outcome of
the hearing. Accordingly, we recommend SSA:

1. Ensure eligibility for TOP, AWG and credit bureau referral is determined on a debt
   basis, rather than a debtor basis.

2. Ensure all debtors are sent second reminder bills, when appropriate.

3. Ensure eligible debtors with earnings from State or local governments are selected
   for AWG.

4. Complete hearing related diaries to determine the result of the hearing and its
   impact on the collection of the overpayment.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with all of our recommendations. See Appendix F for the text of SSA's
comments.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Schedule of Estimated Cases
APPENDIX E – Flowchart of Collection Process
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
AWG      Administrative Wage Garnishment
ECO      External Collection Operation
FSO      Federal Salary Offset
GN       General
MQGE     Medicare Qualified Government Employment
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
ORSIS    Office of Retirement and Survivors Insurance Systems
POMS     Program Operations Manual System
RECOOP   Recovery and Collection of Overpayment Process
ROAR     Recovery of Overpayments, Accounting and Reporting
RS       Retirement and Survivors Insurance
SM       Systems and Methods
SPA      Special Payment Amount
SSA      Social Security Administration
TOP      Treasury Offset Program
                                                                      Appendix B

Scope and Methodology
Our objective was to determine the effectiveness of the Social Security Administration’s
(SSA) efforts to collect Title II overpayments from individuals who agreed to, but failed
to honor, an installment agreement. To meet our objective, we took the following steps.

•   We reviewed applicable Federal law, regulation and SSA policies and procedures
    regarding the collection of Title II overpayments.

•   We discussed the use of Recovery of Overpayments, Accounting and Reporting
    (ROAR) transaction code 35 with staff in the Division of Title II Payments and
    Accounting, within SSA’s Office of Retirement and Survivors Insurance Systems
    (ORSIS).

•   We obtained a data extract from one segment of the Master Beneficiary Record of
    individuals with an open installment agreement as of March 15, 2007. We
    determined which of the individuals were in default of the agreement by selecting
    only those individuals that had made an agreement December 31, 2006 or earlier
    but had not made a remittance in the 3-month period January through March 2007.

We focused our review on individuals with overpayment balances of $20,000 or more.
To limit our review to only those individuals who agreed to make regular monthly
installment amounts, we excluded individuals with transaction code 35 shown on the
ROAR with the full overpayment amount, and had not had transaction code 35 shown
with a smaller installment amount. We determined that 163 individuals in the segment
met our selection criteria. The combined overpayment balance for these individuals
was about $6.1 million.

From the 163 debtors, we selected a random sample of 50 to determine whether the
procedures described in SSA’s Program Operations Manual System, Systems and
Methods 00610.735, Installment Agreements, were followed. We also determined
whether other methods of recovery, such as the Treasury Offset Program,
Administrative Wage Garnishment, and reporting to credit bureaus, were applicable and
used. Lastly, we determined whether installment agreements were active and/or if the
debtors were still in default as of March 15, 2008, 1 year later.

The entity audited was ORSIS, under the Deputy Commissioner for Systems. ORSIS
staff concurred with our overall audit methodology and confirmed our case review
results.




                                           B-1
We determined the data used in this report were sufficiently reliable given the audit
objective and intended use of the data. Based on the tests described in Appendix C,
Sampling Methodology and Results, we determined that any data limitations were minor
in the context of this assignment and the use of these data would not lead to an
incorrect or unintentional message.

We performed our audit fieldwork in the New York Audit Division from January through
April 2008. Our audit was performed in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                         B-2
                                                                                 Appendix C

Sampling Methodology and Results
We obtained a data extract from one segment of the Social Security Administration’s
(SSA) Master Beneficiary Record 1 (MBR) of beneficiaries 2 who had an overpayment
balance greater than $0 and a Recovery of Overpayments, Accounting and Reporting
(ROAR) event status code showing that an installment agreement was in effect. The
data extract contained the dates and amounts of all agreements and remittances made
for each of the ROAR events through March 15, 2007.

We refined the initial population selected to highlight individuals who were in default of
an installment agreement. To do so, we selected only those individuals who had made
an agreement as of December 31, 2006 or earlier, but had not made a remittance in the
3-month period January through March 2007. We further refined our population to
individuals with a large overpayment. We identified 338 debtors who were not making
agreed-upon installment payments with overpayment balances of $20,000 or more.

In reviewing the 338 debtors, we choose to eliminate those who appeared to have
installment agreements that would be fully paid in 1 payment per SSA’s record. To do
so, we eliminated installment agreements input in ROAR for the full overpayment
amount. 3 We used IDEA to perform this screening. We then reviewed the MBR and
Debt Management System queries for the remaining debtors that had an installment
agreement for a large dollar amount to eliminate typographical errors, such as an input
of an agreement equal to the overpayment, but a digit had been dropped, or to identify
instances when an agreement amount was input equal to the overpayment amount, but
the balance had changed. We also reviewed individual queries for debtors with an
installment amount not evenly divisible by $5 to verify that an agreement had been
made. We identified 163 debtors with a combined overpayment balance of about
$6.1 million as of March 2007 that were not making monthly installment payments as
agreed to, to repay an overpayment of $20,000 or more.




1
  The MBR is divided into 20 segments for processing and updating. The segments are determined by the
last two digits of the Social Security number. Each segment represents 5 percent of all records. We
randomly selected segment 14 and received data from that segment.
2
 Beneficiaries with an open installment agreement are in suspended or terminated status. They are not
currently receiving monthly payments.
3
  Installment Agreements are shown on the ROAR with a transaction code of 35. We were advised by
staff in SSA’s Debt Management Analysis Branch that SSA staff also use ROAR transaction code 35 with
the full amount of the overpayment to load a case in the Recovery and Collection of Overpayment Process
system.


                                                 C-1
 We selected a random sample of 50 of the 163 debtors for review. We obtained and
 analyzed MBRs, Debt Management System remarks queries, Recovery and Collection
 of Overpayment Process offline queries and notices from the Online Retrieval System
 to determine whether the procedures described in Program Operations Manual System,
 Systems and Methods 00610.735, Installment Agreements, were followed. For each of
 the sampled debtors, we also reviewed External Collection Operation information in the
 collection query appended to the MBR to determine whether other methods of recovery,
 such as the Treasury Offset Program (TOP), Administrative Wage Garnishment (AWG),
 and reporting to credit bureaus, were applicable and used. The following tables provide
 the details of our sample results, statistical projections, and estimates.

 Table 1- Population and Sample Size

                  Description                                               Number of Debtors
 Population Size (Data extract from 1 segment)                                     163
 Sample Size                                                                        50
 Combined Overpayment Balance for Population                                   $6,078,222
 Combined Overpayment Balance for Sample                                       $1,892,187

 Table 2- SSA Failed to Follow Collection Procedures and Pursue Other Recovery
 Methods

 Description                           Number of Debtors                    Overpayment Balances
 Sample Results                                                         3                   $95,465
 Point Estimate                                                        10                  $311,216
 Projection- Lower Limit                                                3                   $57,479
 Projection- Upper Limit                                               22                  $564,953
 Estimate for Entire MBR 4                                            200                $6,224,320
Note: All statistical projections are at the 90-percent confidence level.

 Table 3- SSA Followed its Collection Procedures, But Failed to Pursue TOP
 and/or AWG

 Description                           Number of Debtors                    Overpayment Balances
 Sample Results                                                         4                  $140,290
 Point Estimate                                                        13                  $457,346
 Projection- Lower Limit                                                5                  $137,105
 Projection- Upper Limit                                               26                  $777,588
 Estimate for Entire MBR                                              260                $9,146,920
Note: All statistical projections are at the 90-percent confidence level.




 4
     Represents the point estimate multiplied by 20 segments.


                                                       C-2
                                                                                   Appendix D

Schedule of Estimated Cases
We identified seven individuals who are mentioned in different sections of this report,
for whom the Social Security Administration (SSA) did not take all possible recovery
actions, that is, they did not complete all of the outreach procedures described in SSA’s
Program Operations Manual System and/or they did not pursue Treasury Offset
Program (TOP) and/or Administrative Wage Garnishment (AWG). For three of the
seven, SSA neither followed its outreach procedures nor pursued all other applicable
recovery methods. For the remaining four, SSA followed its outreach procedures;
however, they failed to pursue all other applicable recovery methods. We then
estimated the overpayment balances to the entire Master Beneficiary Record.

    SSA         Follow all       TOP Pursued
                                           AWG           Overpayment Potential
    Recovery    Outreach         to Greatest
                                           Pursued to Amount             Not
    Actions     Procedures       Extent    Greatest      Not             Recovered in
                                 Possible? Extent        Recovered       Entire
                                           Possible?     Per Individual Population
    Neither Followed Outreach Procedures Nor Pursued All Other Applicable Recovery
    Methods:
    Individual 1     No           No           No               $22,332
                                                  1
    Individual 2     No           No          N/A                41,863
    Individual 3     No           N/A          N/A               31,270
     Subtotal                                                   $95,465    $6,224,320
    Followed Outreach Procedures But Did Not Pursue All Other Applicable Recovery
    Methods:
    Individual 4    Yes           No           No               $30,410
    Individual 5    Yes           No           N/A               50,661
    Individual 6    Yes           No           N/A               28,597
    Individual 7    Yes           No           No                30,622
     Subtotal                                                  $140,290    $9,146,920
    Total                                                      $235,755   $15,371,240




1
  Not applicable annotated when SSA was unable to pursue other recovery methods due to an individual’s
lack of earnings, disability status, and/or debt recovery statute time limitation of 10 years had expired.
                                                                                     Appendix E

Flowchart of Collection Process
          SSA* receives a request to                   SSA staff inputs the agreed upon monthly
          repay an overpayment by                      installment amount on the Record Installment
          monthly installment                          Agreement (DRIN) screen in the Debt
          payments.                                    Management System which posts a transaction
                                                       code 35 to the ROAR system.


       Before payment is due RECOOP
       sends a bill, unless a protest has                  If a protest is received, staff inputs
       been received.                                      the protest into ROAR and no bills
                                                           are sent until the protest is resolved.



                          Has payment                              If yes, debtor will be billed
                          been received?                           for following month.




         If no, RECOOP sends
         a reminder bill.                       After 30 days,
                                                has payment
                                                been received?

         If no, RECOOP sends
             nd
         a 2 reminder bill.
                                                   After 30 days, has
                                                   payment been
         If no, RECOOP sends                       received?
         a call-in notice.
                                                                                              Input diary
                                    The Debt                                                  for further
                                    Management                                                action.
                                    Section speaks to
     If after 15 days the           the debtor by phone.
     debtor has not called in,
     the Debt Management                                              The Debt Management
     Section receives an alert       The Debt Management              Section takes necessary
     to contact the debtor.          Section is unable to             action to control the case.
                                     reach debtor by phone.

                                                                                        Terminate
                                                                                        collection efforts.




*See Appendix A for Acronyms
                  Appendix F

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      August 22, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster   /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Status of Title II Installment Agreements”
           (A-02-08-18074)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "STATUS OF TITLE II INSTALLMENT AGREEMENTS" (A-02-08-18074)

Thank you for the opportunity to review and comment on the draft report. Our responses to the
specific recommendations are provided below.

Recommendation 1

Ensure eligibility for Treasury Offset Program (TOP), Administrative Wage Garnishment
(AWG) and credit bureau referral is determined on a debt basis, rather than a debtor basis.

Response

We agree that reprogramming the system would align the system with the current policies in
Program Operations Manual System (POMS) GN 02201.030 and GN 02201.040, which refer to
the debt, not the debtor. However, major changes to not only the External Collection Operation
program, but changes to the Title II and Title XVI systems are necessary to ensure that other
actions (i.e., refunds, underpayments, waivers, recomputations, and reconsiderations) are
processed at the debt level. We will evaluate the cost-effectiveness of any such changes to these
systems. Of course, any proposed change would have to obtain the required approval and
funding as part of the Information Technology Advisory Board process.

Recommendation 2

Ensure all debtors are sent second reminder bills, when appropriate.

Response

We agree. Typically an action, such as a waiver request or a manual suspension of billing,
prevents the second notice from being sent. If staff do not take action to resolve the waiver
request or manually resume billing, the system will not produce the reminder bill. We will work
to identify the circumstances as to why we did not generate second reminder bills in those cases
identified by OIG, and we will take any necessary corrective actions.

Recommendation 3

Ensure eligible debtors with earnings from State or local governments are selected for AWG.

Response

We agree. We should select eligible debtors with earnings from State and local government,
meeting all other AWG criteria, for debt recovery through the AWG process. The Internal
Revenue Service classifies earnings, and if the classification is State or local government, we
select them for AWG. However, if we classify earnings as Medicare Qualified Government



                                                F-2
Employee (MQGE) wages, which could be local, State or Federal, we must exclude them from
the AWG process. We will work to determine if there is a way to identify and exclude Federal
wages under MQGE.

Recommendation 4

Complete hearing related diaries to determine the result of the hearing and its impact on the
collection of the overpayment.

Response

We agree. We will issue a national reminder through an Administrative Message by
December 1, 2008.




                                               F-3
                                                                    Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division, (212) 264-5295

   Victoria Abril, Audit Manager, (212) 264-0504

Acknowledgments

In addition to those named above:

   Christine Hauss, Senior Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-08-18074.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
